<html>
<title> - H.R. 958, H.R. 959 and H.R. 984</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                    H.R. 958, H.R. 959 and H.R. 984

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 27, 2003

                               __________

                           Serial No. 108-10

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______
86-098              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Rob Bishop, Utah                     Madeleine Z. Bordallo, Guam
Richard W. Pombo, California, ex     Nick J. Rahall II, West Virginia, 
    officio                              ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 27, 2003...................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     3
        Prepared statement of....................................     4
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey, Prepared statement submitted for the record.     5

Statement of Witnesses:
    Baker, D. James, President and Chief Executive Officer, 
      Academy of Natural Sciences................................    15
        Prepared statement of....................................    17
    Lautenbacher, Vice Admiral Conrad C., Under Secretary for 
      Oceans and Atmosphere, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................     6
        Prepared statement of....................................     8


     LEGISLATIVE HEARING ON H.R. 958, A BILL TO AUTHORIZE CERTAIN 
 HYDROGRAPHIC SERVICES PROGRAMS, TO NAME A COVE IN ALASKA IN HONOR OF 
THE LATE ABLE BODIED SEAMAN ERIC STEINER KOSS, AND FOR OTHER PURPOSES; 
H.R. 959, A BILL TO IMPROVE THE CONSERVATION AND MANAGEMENT OF COASTAL 
  AND OCEAN RESOURCES BY AUTHORIZING NATIONAL OCEANIC AND ATMOSPHERIC 
ADMINISTRATION OCEANOGRAPHIC PROGRAMS; AND H.R. 984, A BILL TO IMPROVE 
   THE CONSERVATION AND MANAGEMENT OF COASTAL AND OCEAN RESOURCES BY 
     REENACTING AND CLARIFYING PROVISIONS OF A REORGANIZATION PLAN 
    AUTHORIZING THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION.

                              ----------                              


                        Thursday, March 27, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest, [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest, Pallone. and Bordallo.

  STATEMENT OF THE HON. WAYNE GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee of Fish, Wildlife, and 
Oceans will come to order. Welcome, everybody, here this 
afternoon. Admiral Lautenbacher, Dr. Baker, we appreciate your 
attendance here this afternoon.
    The National Oceanic and Atmospheric Administration was 
created as a result of the recommendations included in the 1969 
Stratton Commission report. Those recommendations were designed 
to create an agency with broad ocean authority and to make 
several existing programs work together in a more coordinated 
manner to improve our understanding and management of the ocean 
and atmosphere. Two of the bills we are considering today, the 
NOAA Oceanographic Act and the NOAA Act further that purpose.
    H.R. 984, the National Oceanic and Atmospheric 
Administration Act of 2003 updates and replaces the 
reorganization plan under which NOAA was created in 1970, 
establishes NOAA's primary mission, and authorizes 
appropriations for the agency's program support functions. H.R. 
959, the National Oceanic and Atmospheric Administration 
Oceanography Amendments Act of 2003 authorizes appropriation 
for several of NOAA's coastal and ocean research programs that 
are not authorized under other statutes. These bills address 
programs under the joint jurisdiction of the House Science and 
Resources Committees. These bills provide an up-to-date 
baseline from which the Committee can work later this year and 
next year when it considers recommendations of the National 
Commission on Ocean Policy.
    Today we will also hear testimony on H.R. 958, the 
Hydrographic Services Amendments of 2003. Last year Congress 
enacted a 5-year reauthorization of Hydrographic Service 
Improvement Act of 2003. This bill addresses several minor 
issues on which final action was not taken last year, including 
authorization of navigation response teams and the joint 
hydrographic institute and the treatment hydrographic services 
volunteers. The bill also names a cove in Alaska for Eric 
Steiner Koss, a crew member of the NOAA ship Rainier who was 
killed in a work-related accident at that cove last summer. 
Finally, the bill authorizes NOAA to replace two aging 
hydrographic survey vessels and three aging fishing survey 
vessels. These vessels are crucial if we are to ensure safe 
navigation in U.S. waters and if we are to have the fishery 
data necessary to make wise ecosystem management decisions.
    We look forward to your testimony this morning especially 
on -- all three bills actually, and the details of all three 
bills. We know that the Ocean Commission has not completed its 
work, yet the Pew Commission is working to review a number of 
things that we are also interested in. So as we move through 
the process of reauthorizing NOAA and dealing with Mr. Saxton's 
bill and ours as well, we will take much of what they recommend 
and say into consideration, both prior to bringing this bill to 
the floor and certainly after.
    Dr. Baker and Admiral Lautenbacher, we appreciate your 
input on these issues today. I yield now to Mr. Pallone.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
on Fisheries Conservation, Wildlife and Oceans, on H.R. 958, H.R. 959, 
                              and H.R. 984

    The National Oceanic and Atmospheric Administration was created as 
a result of the recommendations included in the 1969 Stratton 
Commission report. Those recommendations were designed to create an 
agency with broad ocean authority, and to make several existing 
programs work together in a more coordinated manner to improve our 
understanding and management of the ocean and atmosphere. Two of the 
bills we are considering today, the NOAA Oceanography Act and the NOAA 
Act, further that purpose.
    H.R. 984, the National Oceanic and Atmospheric Administration Act, 
updates and replaces the reorganization plan under which NOAA was 
created in 1970, establishes NOAA's primary missions, and authorizes 
appropriations for the agency's program support functions. H.R. 959, 
the National Oceanic and Atmospheric Administration Oceanography Act 
authorizes appropriations for several of NOAA's coastal and ocean 
research programs that are not authorized under other statutes. These 
bills address programs under the joint jurisdiction of the House 
Science and Resources Committees. These bills provide an up-to-date 
baseline from which the Committee can work later this year, and next 
year, when it considers recommendations of the National Commission on 
Ocean Policy.
    Today we will also hear testimony on H.R. 958, the Hydrographic 
Services Amendments of 2003. Last year, Congress enacted a five year 
reauthorization of the Hydrographic Service Improvement Act of 2003. 
This bill addresses several minor issues on which final action was not 
taken last year, including the authorization of navigation response 
teams and the joint hydrographic institute and the treatment 
hydrographic services volunteers. The bill also names a cove in Alaska 
for Eric Steiner Koss, a crew member of the NOAA ship RAINIER who was 
killed in a work-related accident at that cove last summer. Finally, 
the bill authorizes NOAA to replace two aging hydrographic survey 
vessels, and three aging fishery survey vessels. These vessels are 
crucial if we are to ensure safe navigation in U.S. waters, and if we 
are to have the fishery data necessary to make wise ecosystem 
management decisions.
    I look forward to the hearing from the distinguished witnesses and 
I would now recognize the gentleman from New Jersey, Congressman Frank 
Pallone.
                                 ______
                                 

   STATEMENT OF THE HON. FRANK PALLONE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. NOAA's activities and 
programs obviously are of great interest both to me and the 
Democratic members of the Subcommittee and I am looking forward 
to hearing from all of our witnesses or our two witnesses 
today.
    NOAA is tasked with the enormous responsibility of managing 
our Nation's coastal and ocean resources. However, the Nation's 
responsibilities for managing our coasts and oceans have 
changed over the three decades of the agency's existence and 
our operative policies should accurately reflect this 
evolution. Therefore I support the intentions of the 
legislation that we have before us insofar as they mostly 
modernize and clarify existing authorities. But I must express 
some apprehension at acting prior to the release of 
comprehensive reviews of our ocean policy by both the U.S. 
Commission on Ocean Policy and the Pew Oceans Commission.
    In the Oceans Act of 2000, Congress tasked the U.S. 
Commission on Ocean Policy to complete a comprehensive 
evaluation of ocean and coastal policies, programs, and 
activities, and subsequently, to recommend modifications to 
Federal laws and the structure of Federal agencies. This leads 
me to question why the Subcommittee at this time is considering 
legislation to authorize the existing up administration and 
organizational structure of NOAA which will assuredly fall 
under this commission's recommendation.
    Mr. Chairman, I'm not implying that these bills are without 
substance or merit. On the contrary, authorization of a program 
to establish a coordinated ocean and coastal observing system 
has been warranted for several years, and particularly I have 
long been a strong supporter of the National Undersea Research 
Program and the fisheries management oriented research that the 
program supports in New Jersey and the Mid-Atlantic region. But 
before acting to authorize NOAA as a whole, the Subcommittee 
should first consider the broader context surrounding these 
issues, and consequently it is my belief that a more thorough 
vetting of these ideas among States, local governments, and the 
private sector is essential.
    Mr. Chairman, I appreciate your interest in having this 
hearing today. I look forward to working cooperatively with you 
and the other members of the Subcommittee to ensure that NOAA 
remains the Federal Government's pre-eminent ocean authority, 
and I also look forward to future hearings later this year when 
the Subcommittee convenes to consider the final recommendations 
of these two national commissions. Thanks.
    Mr. Gilchrest. Thank you, Mr. Pallone. Just one other issue 
before we get started. Mr. John Rayfield, a staffer who worked 
on the old Merchant Marine and Fisheries Committee--a Committee 
which we all hope will be here again sometime soon--is leaving 
us. From 1995 to the present, John has worked on the Resources 
Committee. He is not retiring, I do not think. He is going to 
the Coast Guard Subcommittee of the Committee on Transportation 
and Infrastructure. So thanks, John, for all of your service on 
this Committee.
    Mr. Pallone. Mr. Chairman, can I --
    Mr. Gilchrest. I yield to the gentleman from New Jersey.
    Mr. Pallone. I just realized that I haven't introduced a 
new staff person for the Subcommittee, Katherine Ware, who is 
actually here for the first time today, so we want to welcome 
her to the Subcommittee as well on the Democratic side. Thank 
you.
    [The prepared statement of Mr. Pallone follows:]

Statement of The Honorable Frank Pallone, a Representative in Congress 
                      from the State of New Jersey

    Thank you Mr. Chairman. NOAA's activities and programs are of great 
interest to me and the Democrat members of this Subcommittee. I am 
looking forward to hearing from our witnesses today. Welcome to you 
all.
    NOAA is tasked with the enormous responsibility of managing our 
nation's coastal and ocean resources. However, the nation's 
responsibilities for managing our coasts and oceans has changed over 
the three decades of the agency's existence, and our operative policies 
should accurately reflect this evolution.
    Therefore, I support the intentions of this legislation in so far 
as they mostly modernize and clarify existing authorities. But I must 
express some apprehension at acting prior to the release of 
comprehensive reviews of our ocean policy by the U.S. Commission on 
Ocean Policy and the Pew Oceans Commission.
    In the Oceans Act of 2000, Congress tasked the U.S. Commission on 
Ocean Policy to complete a comprehensive evaluation of ocean and 
coastal policies, programs, and activities, and subsequently to 
recommend modifications to Federal laws and the structure of Federal 
agencies. This leaves me to question why this Subcommittee at this time 
is considering legislation to authorize the existing administration and 
organizational structure of NOAA, which will assuredly fall under this 
commission's recommendations.
    I am not implying that these bills are without substance or merit. 
On the contrary, authorization of a program to establish a coordinated 
ocean and coastal observing system has been warranted for several 
years. In particular, I have long been a strong supporter of the 
National Undersea Research Program and the fisheries management 
oriented research that the program supports in New Jersey and the mid-
Atlantic region.
    Before acting to authorize NOAA as a whole, the Subcommittee should 
first consider the broader context surrounding these issues, and 
consequently, it is my belief that a more thorough vetting of these 
ideas among states, local governments, and the private sector is 
essential.
    Mr. Chairman, I appreciate your interest in NOAA. I look forward to 
working cooperatively with you, and with the other members of this 
Subcommittee, to ensure that NOAA remains the Federal Government's pre-
eminent ocean authority. I also look forward to future hearings later 
this year when this Subcommittee convenes to consider the final 
recommendations of these two national commissions. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Pallone. I would also like to 
ask unanimous consent that the statement will be submitted to 
the record by Mr. Saxton.
    [The prepared statement of Mr. Saxton follows:]

  Statement of The Honorable Jim Saxton, a Representative in Congress 
    from the State of New Jersey, on H.R. 984, H.R. 958 and H.R. 959

    Mr. Chairman, thank you for holding this hearing today. I commend 
you for introducing H.R. 984, a bill to authorize NOAA's basic 
structure and missions. Such legislation is long overdue. This bill 
provides a baseline from which the Committee can more effectively 
review the recommendations of the Ocean Commission later this year. I 
hope you will move it quickly. I also appreciate your including in 
today's hearing H.R. 959 which authorizes NOAA's oceanographic research 
programs.
    When NOAA was created in 1972, it brought together Federal ocean 
and environmental monitoring and prediction programs into one agency. 
The Stratton Commission, which recommended the creation of the agency, 
believed that bringing these programs into one agency would encourage 
them to work more effectively together. This has occurred in some areas 
within the agency. However, budget pressures to support fishery 
management, weather prediction, and satellite construction, have often 
left NOAA's ocean, coastal and Great Lakes research programs to fight 
over whatever budget scraps remain after those larger programs are 
funded. H.R. 959 provides a separate authorization for these research 
programs. I hope this bill will highlight the important work done by 
these programs, and help provide them a fairer slice of NOAA's budget 
pie.
    Of particular concern to me, is the authorization included in the 
bill for the National Undersea Research Program, popularly known as 
NURP. There are 6 NURP Centers around the country, most importantly, in 
my view, is the Mid-Atlantic Bight Center located in Tuckerton, N.J.. 
This Center works in conjunction with the Navy and the National Science 
Foundation to operate the Long-term Environmental Observatory at 15 
meters (LEO-15). LEO serves as a test-bed for cutting edge undersea 
research technologies. Once proven, these technologies are used in 
other locations to establish integrated long-term ocean observing 
systems. The development and implementation of these systems are 
crucial if we are to understand the role of the ocean in long-term 
climate change, if we are to significantly improve weather forecasting, 
and if we are to understand the natural dynamics that govern marine 
ecosystems.
    The bill also authorizes
    <bullet> the Coastal Ocean Program which funds the Ecology of 
Harmful Algal Blooms (ECOHAB) program;
    <bullet> NOAA's Great Lakes Environmental Research Laboratory, 
Pacific Marine Environmental Laboratory, and Atlantic Oceanographic and 
Meteorological Laboratory;
    <bullet> the Coastal Observing Technology System; and
    <bullet> the Ocean Exploration Program.
    The bill also directs the National Ocean Research Leadership 
Council to provide Congress with a plan to implement the President's 
Panel on Ocean Exploration recommendation for a dedicated multi-year, 
multi-disciplinary voyage of ocean discovery.
    Finally, I am pleased to see Don Young's hydrographic services bill 
on the schedule today. This bill authorizes several important additions 
to NOAA's navigation services programs. I hope to have a chance later 
today to ask the Admiral about NOAA's plans expanding implementation of 
its real time tide and current measurements program, and air-gap and 
visibility sensors.
    Again, Mr. Chairman, thank you for holding this hearing today.
                                 ______
                                 
    Mr. Gilchrest. Gentlemen, once again thank you coming this 
afternoon to give us your insight into this upcoming 
legislation. Admiral, you may begin, sir.

    STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, UNDER 
   SECRETARY FOR OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Admiral Lautenbacher. Thank you. Mr. Chairman, Congressman 
Pallone, distinguished members of the staff, thank you very 
much for having the opportunity this afternoon to testify on 
behalf of NOAA and the three bills that are up for discussion 
this afternoon that will authorized some of our very important 
activities. I have a lengthier statement which I ask to be 
submitted for the record and included.
    Mr. Gilchrest. Without objection.
    Admiral Lautenbacher. We will just go over a couple of high 
points in order to allow more time for questions. I view the 
issue of NOAA's organization, mission, and role as a very 
critical one, certainly to the Administration and to Congress 
and to the country. In one of my first acts as the 
Administrator of NOAA was to call for a bottom-up fundamental 
review that would examine the agency's missions, roles, and 
organizations for the future. We completed that 3 months later.
    I had asked three questions which I thought were very 
pertinent to--and they are pertinent to our discussion today. 
First of all, is the NOAA organization aligned with its current 
missions and positioned for future missions? Second of all, are 
there any significant imbalancs in our resources versus 
requirements? And third, are we being as efficient as possible 
in meeting current and future mission tasking?
    That review was completed and was passed up through my 
organization, through the Secretary. We issued 68 
recommendations from the program review and several of which 
were then forwarded to Congress for reprogramming authority to 
change some of our structure, and I am delighted to say it was 
agreed to. We're very pleased with Congress's support of these 
changes which have been codified in the bill that we are 
talking about today. So I am very grateful for that support in 
both houses of Congress as well as from the Administration. 
They, I think, are important pieces of building NOAA as a 
functional organization for the future.
    Three of the items that were in there I mentioned that were 
particularly important I think were the creation of an office 
of program, planning, and integration to begin to bring down 
the NOAA stovepipes and build cross-mission tasking and bring 
what I would call a common corporate practice to government, 
that of matrix management; allowing us to set up teams to meet 
the missions requirements of the future. Realignment of 
permanent positions, 66 of which were brought into important 
areas such as education, and interagency and intergovernmental 
coordination. Many of the challenges we face are in building 
coalitions and partnerships across agencies and within other 
parts of our Federal and State Governments.
    Third, the separation of regulatory and research functions, 
particularly within our fisheries area where we have taken the 
science offices and separated them from those that are doing, 
offices that are doing regulation and management in order to 
ensure the integrity of the science and the management. Those 
changes were made based on the reprogramming authority that we 
received from Congress and we are grateful for that support.
    The three bills today before us do represent a 
comprehensive overview of NOAA and just let me make a couple of 
comments on each one here. Let me say, we are very grateful for 
the efforts of the staff and the members to support changes in 
our authorizing legislation, and the opportunity to build an 
organic bill for NOAA. It is the support of the staff here and 
this Committee that allows us to get to this point we are at 
today and I appreciate that very much.
    We want to work with the Committee as we go through this 
process for all three of the bills that we have today. I think 
there is a great deal of merit in all three of them and that we 
can come to a successful conclusion in all of them.
    The first bill, the first one on my agenda here, the 
Hydrographic Services Amendments of 2003, I want to thank the 
Subcommittee for their support for the reauthorization of our 
Hydrographic Services Improvement Act last year. This is a very 
important bill. The efforts over the last several years have 
allowed NOAA to completely convert our 1,000 paper charts to a 
computer-based digital system. The bill before us allows us to 
go even further. It picks up on some of the provisions which 
were left out of the legislation last year and it is important 
for us to deal with those issues.
    The second bill, H.R. 959, the NOAA Oceanography Amendments 
Act, which clarifies the roles and responsibilities of NOAA 
line offices with regard to ocean and coastal responsibilities 
is extremely important as well. For instance, one of the labs 
that would be authorized in this bill is the lab that allowed 
us to predict the 1997, 1998, and the 2002 and 2003 El Nino 
months in advance. The work done by this laboratory is critical 
to the country and to the future of our economy. We would ask 
in this case, because not all of our labs are authorized, we 
would ask some flexibility in the legislation to allow 
authorization for our other lab structure as well in order that 
we can have the flexibility to meet some of the scientific and 
research challenges that we will meet in the future.
    The third bill, the NOAA Administration Act, H.R. 984, 
extremely important because it lays out the organization of our 
office and authorizes the functions of the line offices, is 
extremely important. I am grateful again to the changes that 
have been made to the bill that we have asked for. I am 
particularly happy about the inclusion of the assistant 
administrator for programming, planning and integration. That 
is an important function that will allow us to meet the 
challenges of the future. And also the authorization of the 
science advisory board, another very important key piece which 
was begun by Dr. Baker and has turned out to be very valuable 
to our organization.
    I do believe that we have a couple of things that we would 
ask to consult with and work on between the Administration, 
between the Committee, but I think that this is a great 
opportunity to move forward and to provide an organic act as 
well as the oceanography and the hydrographic services act that 
we have here to help the agency and help the country.
    Again, thank you, Mr. Chairman, for your support, and 
Congressman Pallone, for the support of the minority as well. I 
too want to thank John Rayfield, before I close, for his many 
years of support, dedication, talent, energy that he has put 
into this whole effort. On behalf of all of the employees at 
NOAA, we are very grateful to John for his hard work on our 
behalf. Thank you, Mr. Chairman.
    [The prepared statement of Admiral Lautenbacher follows:]

   Statement of VADM Conrad C. Lautenbacher, Jr., USN (Ret.), Under 
 Secretary for Oceans and Atmosphere, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce

INTRODUCTION
    Thank you, Mr. Chairman and Members of the Subcommittee, for this 
opportunity to appear before you to testify on three bills to 
reauthorize many of the ocean and coastal programs of the Department of 
Commerce's National Oceanic and Atmospheric Administration (NOAA). NOAA 
appreciates your continued support and interest in ensuring that it has 
the appropriate authorities and organization to address its ocean, 
coastal missions, as well as its atmospheric and climate prediction 
responsibilities. My testimony will address the three legislative 
proposals before the Subcommittee today: H.R. 958, the Hydrographic 
Services Amendments of 2003; H.R. 959, the National Oceanic and 
Atmospheric Oceanography Amendments Act of 2003; and H.R. 984, the 
National Oceanic and Atmospheric Administration Act of 2003. NOAA is 
pleased to provide initial comments on these three bills, and to work 
with the Committee as it deliberates.
    The three bills would authorize the National Oceanic and 
Atmospheric Administration and its line and program offices, the Office 
of Oceanic and Atmospheric Research (NOAA Research), the National 
Marine Fisheries Service (NOAA Fisheries), the Office Marine and 
Aircraft Operations (OMAO), and the National Ocean Service (NOS). The 
legislation would also authorize NOAA programs and laboratories 
including the Coastal Ocean Program (COP), Great Lakes Environmental 
Research Laboratory (GLERL), Pacific Marine Environmental Laboratory 
(PMEL), Atlantic Oceanographic and Meteorological Laboratory (AOML), 
National Undersea Research Program (NURP), and Office of Ocean 
Exploration. The bills also authorize NOAA Research to conduct research 
and monitoring in support of coastal observations and hydrographic 
related services. They also authorize the Science Advisory Board (SAB) 
and the Fleet Replacement and Modernization program.
    A number of provisions in these bills are currently under review 
with the Administration, we will work with the Committee, and inform 
them as positions are developed. For example, the Administration is 
considering alternative options to the volunteer authority in section 
102 of H.R. 958, the Hydrographic Services Amendments.
    NOAA is concerned that the language in Sections 3, 6, 7, and 8 of 
H.R. 984, The National Oceanic and Atmospheric Administration Act of 
2003, may unnecessarily restrict the Secretary's ability to manage the 
agency, and we would be happy to work with the Committee to modify this 
language. We would also like to work with you regarding some technical 
changes to the provision dealing with the Director of Marine and 
Aviation Operations and the Commissioned Officer Corps.

H.R. 984, THE ``NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION ACT OF 
        2003''
    NOAA appreciates this opportunity to provide initial comments on 
this proposed legislation. I commend the Subcommittee for recognizing 
the need to facilitate the integration of ongoing research and 
management programs in order to meet diverse national needs and 
requirements. NOAA has a proud past and a promising future. I look 
forward to working with the Subcommittee as this bill makes its way 
through the legislative process. Before I address specific sections of 
the legislation at hand, I would like to spend a few moments discussing 
the NOAA Program Review Team report which gathered suggestions on 
organizational, resource, and business process changes for building a 
better NOAA to serve the American people.
    Upon coming to NOAA, I called for a bottom-up, fundamental review 
that would examine the Agency's strengths and opportunities for 
improvement. On February 1, 2002, I asked all NOAA employees to respond 
to three questions about NOAA and the way we were doing business at 
that time. These three questions were:
    1) Is the NOAA organization aligned with its current missions and 
future missions? If not, what are your recommendations for change, 
near-term and/or long-term?
    2) Are there significant imbalances in resources versus 
requirements? If so, what are your recommendations for change, near-
term and/or long-term?
    3) Are we being as efficient as possible in meeting our current and 
future mission tasking? If not, what are your recommendations for 
change near-term and/or long-term?
    The Program Review Team (PRT), comprised of 16 representatives of 
NOAA line and staff offices, deliberated for three months, and made 
recommendations to address many of the responses. In June 2002, under 
my signature, NOAA issued 68 recommendations from the Program Review 
Team process.
    There are many other PRT management improvements that are crucial 
to improve the way we do business at NOAA. I look forward to working 
the Committee to coordinate these activities with your efforts. These 
include:
    <bullet> Creation of the Office of Program Planning and 
Integration, which would be comprised of 10 permanent positions 
reprogrammed from the Under Secretary and Associate Offices and 13 
staff detailed from NOAA's line offices. The creation of this office 
will result in enhanced research and planning functions, reduce 
duplication of effort, provide better alignment of missions, and fill 
voids in NOAA's corporate capabilities.
    <bullet> Realignment of 66 permanent positions within the Under 
Secretary and Associate Offices to consolidate NOAA education efforts 
under the Office of Education and Sustainable Development, and realign 
interagency and intergovernmental coordination under the Office of 
Public, Constituent and Intergovernmental Affairs.
    <bullet> Separating as much as possible regulatory and research 
functions within the Line Offices. This activity also entails creating 
a science position within top NOAA Fisheries management, and shifting 
the reporting of regional Science Center Directors from the Regional 
Administrators to top management within NOAA Fisheries.
    <bullet> Developing a formal corporate decision making process by 
establishing two corporate boards: the NOAA Executive Council (NEC) to 
review NOAA-wide policy and management issues and NOAA Executive Panel 
(NEP) to manage NOAA operations and make policy recommendations to the 
NEC.
    <bullet> Establishing a sequential planning, programming and 
budgeting process. A new requirements review of NOAA activities will be 
part of the programming process.
    <bullet> Managing cross-cutting programs, such as climate and 
corals, through a matrix approach that provides managers dual reporting 
authority and budget authority.
    <bullet> Instituting needed administrative service improvements. 
These would, for example, significantly reduce the time needed to award 
grants to your constituents and would put funding increases into the 
hands of NOAA program managers within 20 business days after an 
appropriations bill is signed by the President. We are also working to 
improve facilities maintenance and safety.
    <bullet> Establishing a working group to develop an Observing 
System Architecture.
    Implementation of this effort will begin to position NOAA to meet 
the critical resource and environmental challenges that the Nation will 
face in the 21st century. It is intended to unlock the full potential 
of this talented organization by providing an improved management 
structure and new strategic management processes. These actions will 
improve integration across our line offices, increase efficiency, 
provide more management visibility, promote increased responsiveness to 
customer needs, and be totally supportive of the President's Management 
Initiatives. By infusing a set of corporate business practices in the 
near-term and focusing and strengthening capabilities in the long term, 
NOAA will improve mission delivery and develop a ``corporate NOAA'' 
identity.

Section 10. Science Advisory Board
    Sec. 10 of H.R. 984 authorizes the Science Advisory Board (SAB) and 
its activities. The language would authorize the SAB and its operation 
within NOAA to provide advice to the agency on strategies for research, 
education, and the application of science to resource management and 
environmental assessment and prediction. NOAA is pleased to see 
Congress' recognition of the importance of the SAB. The Secretary of 
Commerce initially approved the establishment of the SAB on August 15, 
1997. The Board was initially chartered under the Federal Advisory 
Committee Act (5 U.S.C. App. 2) on September 25, 1997, with the General 
Services Administration's concurrence. Since its inception, the SAB has 
operated under a charter that is consistent with that proposed in this 
legislation.
    We request two modifications to Section 10. First, in Section 10 
(c) (1), strike ``appointed by the Under Secretary'' and insert 
``appointed by the Secretary.'' Second, in Section 10 (c) (3) (A), 
strike ``and shall serve at the discretion of the Under Secretary'' and 
insert in lieu thereof, ``and shall serve at the discretion of the 
Secretary.'' With these changes, the Secretary of Commerce will appoint 
the members of the SAB, SAB members will serve at the discretion of the 
Secretary, and the Secretary may reappoint SAB members, or not, to 
additional terms on the SAB. We believe these changes provide the 
Secretary the appropriate flexibility to ensure that the SAB is 
effective in its role of advising the Under Secretary on strategies for 
research, education, and application of science to resource management 
and environmental assessment and prediction. Also, we believe that the 
issue of term limits for board members would be better addressed 
through the charter for the particular board, rather than through 
legislation.

Section 11. General Authorities, Grants, Contracts and Cooperative 
        Agreements
    NOAA requests that H.R. 984 be amended to include alternative 
language authorizing the Joint and Cooperative Institutes similar to 
that included in Fiscal Year 2003 appropriations approved by Congress, 
as follows:
        ``Provided further, That the Secretary of Commerce may 
        hereafter enter into cooperative agreements with Joint and 
        Cooperative Institutes as designated by the Secretary to use 
        the personnel, services, or facilities of such organizations 
        for research, education, training, and outreach.''
    As currently drafted, the proposed language may unduly restrict 
NOAA's ability to pursue additional needed research in other fields 
with the Joint and Cooperative Institutes in the future. The suggested 
language allows for greater flexibility that could enhance NOAA's 
ability to fulfill its mission.
    This section allows NOAA to continue to collaborate with Joint and 
Cooperative Institutes across the country on long-term research 
programs. Each of these Joint and Cooperative Institutes are formal, 
collaborative long-term research partnerships established under a 
Memorandum of Understanding (MOU)/Agreement (MOA) between NOAA, through 
the Office of the Under Secretary of Oceans and Atmosphere, and 
participating universities and non-profit research institutions with 
programs dedicated to oceanographic and/or atmospheric research, 
education and outreach. By design, most of the Institutes are 
geographically co-located with one or more NOAA facilities to promote 
scientific exchange and collaboration. The Joint and Cooperative 
Institutes bring together the resources of a research-oriented 
University or institution and NOAA in order to develop and maintain a 
center of excellence in research relevant to understanding the Earth's 
oceans, the Great Lakes, inland waters, Arctic regions, solar 
terrestrial environment, intermountain west, and the atmosphere.
    In addition to authorization for NOAA to enter into agreements with 
Joint and Cooperative Institutes, I would like to call the Committee's 
attention to NOAA's concerns regarding interagency financing issues for 
Coastal America and the National Oceanographic Partnership Program 
(NOPP). An annual appropriations provision that applies to all Federal 
Agencies restricts these organizations' abilities to obtain 
contributions from partner agencies for their operations. These two 
programs provide models for interagency collaboration on environmental 
and oceanographic projects. NOAA encourages the Committee to consider 
the broader need for NOAA-wide authorities to facilitate the success of 
such collaborative efforts and initiatives. I believe that clarifying 
and updating NOAA's authority to enter into cooperative agreements, 
contracts, grants, resource-sharing agreements, and joint and 
cooperative institutes with a single NOAA-wide authority for these 
purposes will enable NOAA work efficiently with public and private 
partners, and to keep pace with its evolving responsibilities in this 
area.
    NOAA would prefer this language: ``(a) In carrying out the programs 
and activities authorized for the Administration, the Secretary may 
enter into grants, contracts, or cooperative agreements with Federal 
agencies, States, local governments, regional agencies, interstate 
agencies, Federally-recognized Indian Tribes, commercial organizations, 
educational institutions, non-profit organizations, or other persons. 
In addition, to facilitate the implementation of programs and 
activities authorized for the Administration, the Secretary may apply 
for, accept, and use grants or funds from other Federal agencies, 
States, local governments, regional agencies, interstate agencies, or 
other persons.''
    The Commissioned Corps of NOAA is one of the seven uniformed 
services. It is important that legislation relating to NOAA preserve 
explicitly the special functions of the Commissioned Corps, including 
its national emergency functions under Sections 251 and 253 of the NOAA 
Commissioned Officer Corps Act of 2002. Accordingly, we request 
addition of the following subsection to Section 11, ``(d) COMMISSIONED 
CORPS.--Nothing in this Act shall be construed to supersede or 
otherwise affect the National Oceanic and Atmospheric Administration 
Commissioned Officer Corps Act of 2002 (Title II of Public Law 102-
372).''

Section 12. Program Support
    NOAA generally supports the authorized amounts to be appropriated 
for Corporate Services under Section 12 (a). These amounts would be 
sufficient to provide corporate services, including management, 
administrative support, and policy development. The proposed section 
authorizing appropriations for Corporate Services for each of the 
fiscal years 2004-2008 should, however, be consistent with the 
President's Fiscal Year 2004-FY 2008 budget requests.
    NOAA also supports Section 12 (c) of the proposed legislation, 
which authorizes appropriations to enable NOAA to carry out activities 
related to maintenance, repair, safety, and project planning and 
execution of facilities. Addressing the backlog of facilities 
maintenance and repair is critical to NOAA's mission. Since coming to 
NOAA, I have focused on our greatest asset, our people. Efficient 
mission delivery is highly dependent on a team of skilled and motivated 
NOAA employees. In order to attract and retain a competent and 
productive workforce, NOAA must maintain state-of-the-art facilities to 
which this workforce reports each and every day.
Section 13. NOAA Fleet and Modernization
    NOAA's fleet of ships and aircraft support a wide range of ocean 
and atmospheric missions, including oceanographic and fisheries 
research, nautical charting, habitat mapping and characterization, 
ocean exploration, climate studies, hurricane research and 
reconnaissance, and air chemistry studies. Most recently, the NOAA 
fleet have been supporting the Nation's homeland security efforts. 
NOAA's hydrographic survey ships also have been assisting the U.S. Navy 
with 100-percent bottom coverage route surveys in strategic ports 
around the Nation.
    In Fiscal Year 2004, assuming the level of funding specified in the 
President's Fiscal Year 2004 request, the NOAA fleet will comprise 16 
ships (including the reactivation of the FAIRWEATHER) and 13 aircraft. 
Over 50 percent of NOAA's funding for ship support will be met through 
outsourcing and over 40 percent of aircraft funding will go toward 
aircraft charters. In-house data collection will be supported by 4050 
Operating Days on NOAA vessels and 3815 flight hours on NOAA aircraft. 
As program requirements for ship and aircraft support increase at NOAA, 
and the age of the fleet increases, it is critical that NOAA document 
the appropriate mix of outsourcing and in-house data collection and 
generate a schedule for the modernization and replacement of NOAA 
platforms. Last fall, I directed NOAA Marine and Aviation Operations to 
prepare 10-year modernization plans for NOAA ships and aircraft. The 
plans document program requirements; new and emerging mission areas, 
such as homeland security; outsourcing efforts; and proposes a schedule 
for the modernization and replacement of the NOAA fleet. The ship and 
aircraft plans are currently in review at NOAA.

Section 13 (b). Fleet Modernization Plan
    NOAA plans to continue the fleet planning and modernization effort 
described above, and match it to the budget cycle. As such, it is our 
intention to develop a 5 year plan that is updated annually. This would 
allow NOAA to evaluate annual progress to the current status of the 
fleet modernization plan.

H.R. 959, THE ``NATIONAL OCEANIC AND ATMOSPHERIC OCEANOGRAPHY 
        AMENDMENTS ACT OF 2003''
    NOAA conducts a wide array of research aimed at meeting its 
missions of protecting, restoring, and managing the use of coastal and 
ocean resources through ecosystem management approaches; understanding 
climate variability and change to enhance society's ability to plan and 
respond; serving society's needs for weather and water information; and 
supporting the Nation's commerce with information for safe and 
efficient transportation. Our people are working worldwide using some 
of the oldest methods, as well as the most modern, to enhance and 
further our understanding of our oceans and coasts. Using tools in 
space, on the surface of the sea, and on the very depths of the ocean 
bottom, NOAA science has provided valuable information for use by 
decision-makers and the general public. NOAA is pleased to see 
Congress' interest and support of our ocean and coastal programs over 
the years and in the bills before us, and we look forward to working 
with you further to ensure that the full breadth of our oceanographic 
research programs are able to continue their critical work. These funds 
will allow NOAA to continue and enhance cooperative research on ocean 
and coastal issues with other Federal partners.
    NOAA's ocean and coastal research efforts are wide-ranging and have 
many significant impacts. Just a few examples include:
    <bullet> The Coastal Ocean Program (COP) is an important 
competitive, peer-reviewed research program focused on long-term, 
large-scale ecosystem studies necessary to develop alternative 
strategies for improving the condition of the coastal ocean. Major 
research areas of this program include: coastal fisheries ecosystems, 
cumulative coastal impacts, and harmful algal blooms/eutrophication.
    <bullet> The Center for Environmental Health and Biomolecular 
Research (CCEHBR) at Charleston, South Carolina, is responsible for 
research that leads to the development and improvement in the 
ecological indicators from the molecular to the ecosystem level. Major 
research areas include: marine toxins and harmful algal blooms; 
environmental quality and coastal ecosystem health; land use and 
presence of chemical contaminants in the marine environment; and 
genetic characterization of fish and shellfish.
    <bullet> The Tsunami Hazard Mitigation Program has had several 
accomplishments in recent years for hazard assessment, warning, and 
mitigation. For example, tsunami inundation maps were completed for 25 
additional communities in Alaska, California, Hawaii, Oregon and 
Washington in fiscal year 02. Evacuation maps are being standardized so 
that colors and legends are consistent from state to state for 
evacuation brochures. The array of six deep ocean tsunami detectors was 
maintained in Fiscal Year 2002 with 98 percent data return using the 
NOAA research vessel Kai'imoana. A false alarm was avoided on January 
21, 2003 when a large earthquake on the Mexico coastline produced a 1.2 
meter tsunami in Manzanillo Bay. A tsunami forecast model is now in 
place to begin producing tsunami wave forecasts for selective cities. 
Investments in tsunami evacuation maps and state level mitigation plans 
have raised the awareness of coastal residents and local decision 
makers for tsunami hazards and appropriate response.
    <bullet> Studies are conducted at the Pacific Marine Environmental 
Laboratory (PMEL) to improve our understanding of the complex physical 
and geochemical processes operating in the world oceans, to define the 
forcing functions and the processes driving ocean circulation and the 
global climate system, and to improve environmental forecasting 
capabilities and other supporting services for marine commerce and 
fisheries.
    <bullet> The Atlantic Oceanographic and Meteorological Laboratory 
(AOML) has addressed such critical issues as rapid hurricane 
intensification and helped improve the accuracy of hurricane forecasts, 
helping to save lives along the U.S. coastline by contributing 
significantly to better warnings and emergency management.

NOAA LABORATORIES

Sec. 5. Oceanography Programs
    NOAA is pleased to see that H.R. 959 includes specific 
authorization for facilities such as NOAA's Great Lakes Environmental 
Research Laboratory (GLERL), and general authorization for activities 
related to coastal environmental health and biomolecular research. 
Among these activities is research such as that conducted at the Center 
for Environmental Health and Biomolecular Research (CCEHBR), which was 
not specifically authorized in this legislation. We appreciate the 
interest in NOAA's laboratories. NOAA also requests that Congress 
provide language allowing the agency flexibility to create new 
laboratories and programs, or reassign tasks as needed, to better meet 
its mission as new needs may arise. For example, the NOAA
    Environmental Technology Laboratory conducts research into remote 
sensing technologies for studying fisheries, and is not mentioned in 
the legislation.
    NOAA is concerned about the authorization of appropriations in Sec. 
208(2) that provides $12 million for ocean and coastal research 
activities of laboratories and joint institutes, other than activities 
related to GLERL, for fiscal years 2004 through 2008. The President's 
Fiscal Year 2004 request for these activities among AOML, PMEL, and the 
Environmental Technology Laboratory (ETL) is $11.716 million. Holding 
the authorization steady at $12 million would curtail the activities 
specified by this section in coming years due to inflationary costs 
alone. The allowance for GLERL in the authorization of $10 million for 
fiscal years 2004 through 2008 may also not allow for necessary 
inflationary increases. NOAA requests that H.R. 959 be amended to 
provide authorization levels consistent with the President's Budget.
    In Fiscal Year 2002 appropriations, Congress directed NOAA to fund 
seven university-based programs engaged in the collection and 
management of coastal ocean data and in the development and 
verification of sensor technologies. Collectively referred to as the 
Coastal Observation Technology System, these awards totaled almost $13 
M. In addition, NOAA received $475K for program development under the 
title of Coastal Observation Technology System. Two of the awards were 
administered by NOAA Research and five were administered by NOS. NOAA 
worked with these partners to ensure that system development and data 
management protocols would be compatible with the national Integrated 
Ocean Observing System plan under development at the Ocean.US office 
(under the guidance of the National Ocean Research Leadership Council).
    In the Fiscal Year 2003 appropriations, Congress has directed NOAA 
to continue supporting six of the projects funded in Fiscal Year 2002 
plus two new related projects, totaling $14.26 M (all in the NOS budget 
in fiscal year 03). NOAA receives $1.69 M for program development under 
the Coastal Observation Technology title.
    It is important to note that elements across NOAA are working with 
various partners on issues related to collecting, processing, and 
applying observations of the coastal environment. The Coastal 
Observation Technology System is but one component of this effort. 
While working with these programs, NOAA has also assisted Ocean.US in 
the development of a plan for a national coastal ocean observing 
system.

RESEARCH PROGRAMS

Sec. 4. Ocean Exploration Program
    NOAA would like to suggest one change to the authorities of the 
Ocean Exploration Program (OE) highlighted in the new Sec. 206(c)(3). 
The language suggests that OE should conduct public education and 
outreach activities ``in conjunction'' with the National Sea Grant 
College Program (Sea Grant) and the National Science Foundation Centers 
for Ocean Science Education Excellence (COSEE). NOAA would prefer that 
the language specify ``cooperation'' rather than ``conjunction.'' This 
would allow OE to continue to sponsor and conduct public education and 
outreach activities that are complementary to Sea Grant and COSEE's 
work without having to conduct each activity with them each time, which 
might not be the most efficient use of available resources.
    NOAA also recommends amending Sec. 206(c)(4) by adding the word 
``services'' to the list of donations that OE can accept. This would 
allow for individuals with particular expertise in NOAA's issues to 
contribute their knowledge to assisting our mission.

Ocean Observations
    H.R. 959 also authorizes appropriations for other exciting ocean 
and coastal research programs in NOAA. ARGO floats are authorized for 
$9M from fiscal years 2004 through 2008. ARGO is part of a larger 
observational network dedicated to describing, understanding, and 
predicting the earth's climate system. NOAA's climate observation 
program is built on the recognition that national and international 
partnerships are essential to success. A global observing system by 
definition crosses international boundaries and the potential exists 
for both benefits and burdens to be shared by many nations. The climate 
observation program supports both ocean and atmospheric components, but 
the ocean has received the most attention to date because climate 
research has left ocean observing system legacies that must be 
transitioned to an operational framework. Today NOAA laboratories, 
university partners, and volunteer observing ships operate about 60 
percent of the in-situ ocean observing system for climate.
    NOAA conducts observations in the deep as well as coastal oceans 
using a variety of tools. While H.R. 959 discusses in the new Sec. 207 
a Coastal Observation Technology System, the only open ocean observing 
system authorized by H.R. 959 appears to be ARGO. As part of the larger 
system needed to understand our climate and improve the management of 
our Nation's coastal and ocean resources, ARGO relies on other critical 
components that may be distinct from technologies used in coastal ocean 
observing systems. NOAA requests that these components and efforts also 
be recognized and authorized as it continues implementing a global 
ocean observing system. Together, the coastal and deep ocean observing 
technologies paint a much stronger picture of our environment and its 
variability that will be of much greater value to decision-makers.

Arctic Research
    H.R. 959 authorizes funding for Arctic research partnership 
programs. The Arctic Research Office (ARO) serves as a focal point for 
NOAA's research activities in the Arctic, Bering Sea, North Pacific and 
North Atlantic regions. The office manages the Arctic Research 
Initiative, the Study of Environmental Arctic Change Program (SEARCH), 
and other funds allocated to it, supporting both internal NOAA and 
extramural research. It represents NOAA on the Interagency Arctic 
Research Policy Committee, leads U.S. involvement in the Arctic 
Monitoring and Assessment Program, and provides a point of contact 
between NOAA and the Cooperative Institute for Arctic Research and the 
International Arctic Research Center at the University of Alaska 
Fairbanks.
    NOAA is concerned that authorized appropriations in H.R. 959 do not 
meet the request currently in the Fiscal Year 2004 budget. As noted 
previously for our laboratories, the funding level of $4 million 
authorized in the bill is just above the total requested levels for 
Arctic research programs and SEARCH. Fiscal year 2004 funding for 
SEARCH is actually at $2.074 million, above the $2 million level 
authorized by H.R. 959. We would request that the authorization levels 
be consistent with the President's Budget.

H.R. 958, THE ``THE HYDROGRAPHIC SERVICES AMENDMENTS OF 2003''
    I appreciate and thank the Chairman and members of the Subcommittee 
for their continued support for NOAA's hydrographic services, including 
your successful efforts in the last Congress to reauthorize these 
programs for five years. The efforts of this Subcommittee have been an 
essential reason for significant new investment in these programs. The 
base budget for these services has increased 80 percent in seven years 
from $71 million in fiscal year 96 to $128M in the President's fiscal 
year 04 request.
    NOAA has used increased support to completely convert to a 
computer-based, digital system for maintaining our suite of 1,000 paper 
charts. This has allowed us to keep our chart suite updated on an 
almost daily basis. It also resulted in the availability of the raster 
digital chart, which is basically a digital version of the paper chart. 
NOAA has developed new ways of getting this updated information to 
mariners. For example, instead of buying a paper chart that gets more 
and more outdated every day it sits on a shelf, we have introduced 
``print-on-demand'' whereby a chart is printed from our constantly 
updated database when it is ordered.
    Of course, the advent of new technologies is allowing for 
development of a much more dynamic digital chart than a computerized 
rendition of the historic paper chart. The objective, as established by 
the International Maritime Organization, is for nations to provide a 
truly digital, vector chart based on internationally agreed upon 
standards. NOAA's IMO-compliant product is called the Electronic 
Navigational Chart or ENC. NOAA has prioritized development of these 
charts beginning with major ports and waterways. To date, about 240 
have been produced and are being regularly updated and maintained. They 
are being provided at no cost to the public via the Internet. More than 
430,000 have been downloaded since we first posted them on the Web in 
July of 2001.
    NOAA has made similar progress in our efforts to reduce the backlog 
of survey requirements, implement real-time oceanographic systems, and 
improve the capability to utilize GPS through the National Spatial 
Reference System. Over this same period, we have increasingly relied on 
the private sector to achieve our program goals. For example, more than 
half of our funding for hydrographic surveys is dedicated to 
contracting.

Section 103(a) Quality Assurance Program
    This section would essentially require NOAA to promote acceptance 
by other nations and international organizations private sector 
products certified by NOAA. As was noted in the Administration's views 
letter of June 26, 2002, the foreign policy objectives of this section 
should be advisory and be included in the Committee Report on the bill.

Section 103(b) Implementation of Executive Order and OMB Circular
    As was noted in the Administration's views letter of June 26, 2002, 
this section should be advisory and be included in the Committee report 
on the bill. The Department is aware of, and currently implementing, 
its Executive Branch policies on geospatial information.

Section 104 Plan Regarding Photogrammetry and Remote Sensing
    As was noted in the Administration's views letter of June 26, 2002, 
this reporting requirement is unnecessary because NOAA is already 
planning to increase outsourcing for these services. Development of the 
plan has included consulting with relevant private sector 
organizations.

Section 105 Acquisition of Hydrographic Survey Vessel
    Congress has already provided sufficient authority to acquire 
hydrographic vessels, including the authority to procure and lease 
hydrographic vessels under Section 303(b)(1) of the Hydrographic 
Services Improvement Act.

Section 106 Koss Cove
    The NOAA family is very grateful for Section 106, which 
memorializes an Alaskan cove in honor of Able Bodied Seaman Eric 
Steiner Koss of the NOAA Vessel RAINER, who died in the performance of 
a nautical charting mission off the coast of Alaska. As this cove 
appears to be in state waters, NOAA would be happy to work with the 
Committee to ascertain that the State of Alaska has agreed to the name 
change.

Section 107 Depiction of Same Shorelines on Charts and Mapping Products
    To reflect the merger of the Federal Emergency Management Agency 
into the Department of Homeland Security, in section 107 strike, 
``Federal Emergency Management Agency,'' and insert in lieu thereof, 
``Secretary of Homeland Security.''
    In conclusion, NOAA stands ready to work with the Subcommittee 
staff to make the necessary changes to the draft bills to reach our 
mutual goal of improving NOAA's service to the Nation. This concludes 
my testimony, and I would be pleased to respond to any questions you 
may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Admiral.
    Dr. Baker.

  STATEMENT OF D. JAMES BAKER, PRESIDENT AND CHIEF EXECUTIVE 
              OFFICER, ACADEMY OF NATURAL SCIENCES

    Mr. Baker. Mr. Chairman, Mr. Pallone, thank you very much 
for the opportunity to testify. I am pleased to have served as 
Under Secretary for Oceans and Atmosphere and as Administrator 
of NOAA from 1993 to 2001, and especially pleased to see the 
excellent job that Admiral Lautenbacher has done as my 
successor. I am also serving as chair of the International 
Steering Committee for the Global Ocean Observing System. I 
believe it is very important for NOAA to have an organic act, 
and I am pleased to testify in favor of both resolutions, 984 
and 959, which provide that necessary legislation. This will 
provide strength to the vital programs that NOAA carries out.
    NOAA has had an important impact on the conduct of national 
and world affairs since it was formed in 1970. During my tenure 
I was pleased to see Congress support these missions and 
increase the budget substantially. Today NOAA leads in civil 
satellite operations, in ocean exploration, and in coastal 
conservation. Yet at critical times in these and other national 
policy debates there have been questions about NOAA's mission 
and authority, especially where NOAA's programs appear to 
overlap that of other agencies. An organic act would help avoid 
these unnecessary debates and allow NOAA to carry out its 
mission.
    I like what I see here about ocean exploration and believe 
that it encompasses well the national mission and role of NOAA. 
I agree with Congress that a strong ocean exploration program 
is critical for the country and I am pleased that thanks to 
Congressional support NOAA has taken the lead in ocean 
exploration in the United States and real progress is being 
made. As you know, the National Research Council was charged by 
Congress with assessing the feasibility and value of 
implementing a major coordinated international program of ocean 
exploration and discovery.
    I am convinced that NOAA will play a critical leadership 
role in recommending and implementing whatever program is 
recommended and finally funded.
    In terms of ocean observing systems, I was pleased to see 
the emphasis on both coastal and global observing systems. From 
my point of view as chair of the International Global Ocean 
Observing System Steering Committee I can say that NOAA's 
leadership in coastal and global operations is critical to 
success for using ocean data for a variety of purposes. Under 
the leadership of Dr. Worth Nowlin at Texas A&M an 
international plan has been developed and is being implemented 
with strong support through the multi-agency Ocean.US office 
ably headed by Dr. Eric Lindstrom. I also want to emphasize the 
leadership of Dr. Tom Malone of the University of Maryland who 
has been instrumental in putting together the Coastal Ocean 
Observing Program, which will need strong support at the 
upcoming Intergovernmental Oceanic Commission meeting.
    I was also pleased to see a specific mention of ARGO 
floats. As you know, Mr. Chairman, when I was head of NOAA I 
worked with you and your colleagues to develop a comprehensive 
ocean observing system with ARGO floats as a key component. 
Today the ARGO program is being supported by the United States 
and 15 other countries around the world, and observations are 
routinely available. More than 20 percent of the total proposed 
global array is operating and that funding is coming at a rate 
almost sufficient to complete the global array of 3,000 floats 
in a few years. I especially commend the new Administrator, 
Admiral Lautenbacher, and Dr. Stan Wilson who have continued to 
support and develop the program.
    Let me say also that as we look to the future it will be 
critical to have other ocean observations; namely, the 
satellites that measure the shape of the ocean, altimeter 
satellites such as the multinational JASON-2 program; more 
tropical moored buoys such as the TOGA-TAO array that gives us 
information for forecasting the El Nino; coastal moorings, sea-
level gauges, surface drifting buoys, and measurements from 
ships of opportunity. These are all critical for understanding 
the ocean. Such observations coupled with data management are 
critical for dealing with coastal and global issues.
    Let me conclude with a word about details of the 
legislation. From my experience, I would suggest that is 
important to have the Under Secretary report directly to the 
Secretary with no intermediary. This is critical for 
functioning of the agency. I notice that the assistant 
administrators are to be appointed by the Secretary. I believe 
that this appointment authority should be delegated to the 
Under Secretary.
    Finally, I was pleased to see the strong support provided 
to the Science Advisory Board. This has been a critical element 
for NOAA as it reaches out to a broader community. With the 
excellent leadership of Dr. Al Beeton, that group was able to 
provide very good guidance for a variety of programs and I am 
glad to see that it will continue.
    Mr. Chairman, H.R. 959 speaks strongly about the need to 
have a heightened scientific literacy and public appreciation 
of the oceans and the need for NOAA to conduct public education 
and outreach activities that improve public understanding of 
ocean science, resources, and processes. I believe this can 
best be done in collaboration with existing institutions, and 
there are many institutions that NOAA reaches out to today.
    Among those are my own institution, The Academy of Natural 
Sciences, where we carry out environmental research on a 
national scale as well as in Pennsylvania and on the Chesapeake 
Bay. Our laboratories work closely with NOAA on a variety of 
issues and we depend, as does the general public, on a healthy 
Federal research structure as exemplified by NOAA. Our 
Estuarine Research Center works closely with NOAA's Chesapeake 
Bay office, with the University of Maryland, and with other 
local and regional institutions. We believe that by working 
together we can find a way to bring our strengths to bear on 
the important issues that you have shown leadership on for such 
a long time. We hope we can develop some new public programs in 
Maryland and Philadelphia to build the scientific literacy that 
is highlighted in the bill, and we look forward to working with 
NOAA to improve the public understanding of oceans.
    We are looking to reinvent our natural history museum to 
show the excitement and commitment of this important research. 
I am looking for ideas about how we might do this, and we are 
talking to you and your colleagues and the staff about what 
might be done. Our two institutions, NOAA and The Academy 
actually do have a connection and it comes through Thomas 
Jefferson because, of course, it was Thomas Jefferson who 
established the original coast survey that started NOAA, and it 
was Thomas Jefferson who in fact sent Lewis and Clark out on 
their famous expedition. At The Academy of Natural Sciences we 
have all of the original plant specimens from Lewis and Clark. 
So if you will pardon me for putting in a plug for an exhibit 
in November 2004, I want to say that we will have the first 
bicentennial exhibit of the Lewis and Clark exhibit in 
Philadelphia. It will also be coming to Washington in 2006.
    So thank you for the opportunity to be here today, and let 
me also say a word in praise of John Rayfield. Most of what I 
know about how to deal with Congress I learned from John over 
the many years that I was working with him before I came to 
NOAA and while I was at NOAA. John, thank you for your help and 
congratulations on your new job with the Coast Guard. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Baker follows:]

  Statement of D. James Baker, President and Chief Executive Officer, 
 Academy of Natural Sciences, Philadelphia, Pennsylvania, on H.R. 959 
                              and H.R. 984

1. Introduction
    Mr. Chairman, thank you for this opportunity to testify at this 
important hearing. I am D. James Baker, President and Chief Executive 
Officer at the Academy of Natural Sciences in Philadelphia. I am 
pleased to have served as Under Secretary for Oceans and Atmosphere and 
as the Administrator of the National Oceanic and Atmospheric 
Administration (NOAA) from 1993 to 2001. I am also serving as the Chair 
of the international Steering Committee for the Global Ocean Observing 
System sponsored by the Intergovernmental Oceanographic Commission of 
UNESCO, the World Meteorological Organization, the United Nations 
Environment Program, and the International Council for Science. I 
believe that it is very important for NOAA to have an Organic Act, and 
I am pleased to testify in favor of House Resolutions 984 and 959 which 
provide the necessary legislation. The Congress has always strongly 
supported NOAA, and I hope that this resolution will also pass, because 
it will provide strength to the vital programs NOAA carries out.
    From weather and climate to fisheries and coastal zone management, 
NOAA has had an important impact on the conduct of national and world 
affairs since it was formed in 1970. During my tenure, I was pleased to 
see Congress support these critical missions and increase the budget 
substantially. Today NOAA leads in civil satellite operations, in ocean 
exploration, and in coastal conservation among other issues. Yet at 
critical times in these and other national policy debates there have 
been questions about NOAA's mission and authority especially where 
NOAA's programs appeared to overlap that of other agencies. An organic 
act would help avoid these unnecessary debates and allow NOAA to carry 
out its mission. I would like to divide my testimony into three parts: 
(1) the importance of NOAA nationally in ocean exploration, (2) the 
role of NOAA in coastal and global ocean observations, and (3) the need 
for NOAA to make its case to the public.

1. Ocean Exploration
    I like what has been written here about ocean exploration, and 
believe that it encompasses well the national mission and role of NOAA. 
I agree with the Congress that a strong ocean exploration program is 
critical for the country. Thanks to Congressional support, NOAA has 
taken the lead in ocean exploration in the United States, and real 
progress is being made. As you know, the National Research Council has 
been charged by Congress with assessing the feasibility and value of 
implementing a major, coordinated, international program of ocean 
exploration and discovery. I am convinced that NOAA will play a 
critical role in implementing whatever program is recommended and 
finally funded.

2. Ocean Observing Systems
    In terms of ocean observing systems, I was pleased to see the 
emphasis on both coastal and global observing systems. From my point of 
view as Chair of the International GOOS Steering Committee, I can say 
that NOAA's leadership in coastal and global observations is critical 
to success for understanding, predicting, and using ocean data for a 
variety of purposes. Under the leadership of Dr. Worth Nowlin at Texas 
A&M University, an international GOOS strategic plan has been developed 
and is being implemented with strong U.S. support through the multi-
agency Ocean.US office, ably headed by Dr. Eric Lindstrom. I want also 
to emphasize the leadership of Dr. Tom Malone of the University of 
Maryland who has been instrumental in putting together the Coastal 
Ocean Observations Program, which will need strong support at the 
upcoming IOC meeting.
    I was pleased to see a specific mention of ARGO floats. As you 
know, Mr. Chairman, while I was head of NOAA I worked with you and your 
colleagues to develop a comprehensive ocean observing system with ARGO 
floats as a key component. Today, the ARGO program is being supported 
by the U.S. and 15 other countries around the world, and observations 
are routinely available. I understand that more than 20 percent of the 
total proposed global array is operating, and that funding is coming at 
a rate almost sufficient to complete the global array of 3000 floats in 
a few years. I especially commend the new Administrator and Under 
Secretary, Admiral Lautenbacher, and Dr. Stan Wilson, who have 
continued to support and develop the program.
    Let me say also that as we look to the future, it will be critical 
to have other ocean observations--namely the satellites that measure 
the shape of the ocean, altimeter satellites such as the multinational 
JASON-2 program, tropical moored buoys such as the TOGA-TAO array and 
coastal moorings, sea level gauges, surface drifting buoys, and 
measurements from ships of opportunity. Such observations, coupled with 
data management, are critical for dealing with both coastal and global 
issues.

3. Legislation
    Let me say a word about the details of the legislation in H.R. 984. 
From my experience I would suggest that it be made clear that the Under 
Secretary report directly to the Secretary with no intermediary--this 
is critical for functioning of the agency. I noticed that the Assistant 
Administrators are to be appointed by the Secretary--I would suggest 
that this be done with the advice of the Under Secretary. Finally, I 
was pleased to see the strong support provided to the Science Advisory 
Board. This has been a critical element for NOAA as it reaches out to a 
broader community. I established the first such Board, and with the 
able and excellent leadership of Dr. Alfred Beeton, it was able to 
provide very good guidance for a variety of programs. I am glad to see 
that it will continue.

4. Public Programs
    Mr. Chairman, H.R. 959 speaks strongly about the need to achieve a 
heightened scientific literacy and public appreciation of the oceans, 
and the need for NOAA to conduct public education and outreach 
activities that improve the public understanding of ocean science, 
resources, and processes. I believe that this can best be done in 
collaboration with existing institutions. At the Academy of Natural 
Sciences, we carry out environmental research on a national scale as 
well as in Pennsylvania and on Chesapeake Bay. We carry out research in 
systematic and evolutionary biology, we care for major collections, and 
we operate a major public museum. Our laboratories work closely with 
NOAA on a variety of issues and we depend, as does the general public, 
on a healthy Federal research structure as exemplified by NOAA. In 
Maryland our Estuarine Research Center works closely with NOAA's 
Chesapeake Bay Office, with the University of Maryland, and with other 
local and regional institutions. We believe that by working together, 
we can find a way to bring our strengths to bear on the important 
issues that you have shown leadership on for such a long time.
    We also hope that we can find ways to develop new public programs 
both in Maryland and in Philadelphia to build the scientific literacy 
that is highlighted in the bill, and we look forward to working with 
NOAA to improve the public understanding of oceans and their resources 
to show our many audiences the importance of this work. We want to re-
invent our natural history museum to show the excitement and commitment 
of this important research. I'm looking for ideas for exhibits and 
programs, and will be talking to you, your colleagues, and your staff 
about what might be done.
    Thank you for the opportunity to be here today. I appreciate the 
opportunity to testify, and look forward to successful passage of the 
legislation.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Baker.
    I think what we will do is we will--I think we just lost 
the gentlelady from Guam. Maybe we will go back and forth, 
Frank. I will take about five, you take you five.
    Admiral and Dr. Baker, I would like to ask a few questions 
where you feel free to both respond. Admiral, you made 
reference to just a couple items in the legislation that we can 
work through. Could you just mention one or two of those items 
that you think we might want to change in the language that we 
have now?
    Admiral Lautenbacher. There are a few things in the--I 
guess it depends on which legislation you would like to go 
through, because there are a couple of comments that we have 
for each one of these.
    Mr. Gilchrest. H.R. 984.
    Admiral Lautenbacher. Let me get to my page here with 
those. I think the issue of designating--again we are still 
working through this within the Administration--designating 
specific positions for whether they are SES, general positions, 
that we would like to work on language that keeps flexibility 
for the Administration yet provides the intent of Congress to 
ensure that we have the right organizational set up. So the 
specificity of whether positions are SES, general, political, 
whatever, we would like to talk about which ones fit into 
various categories instead of designating each one. So those 
are some changes that we would like to--
    Mr. Gilchrest. So the language as it stands right now as 
far as designating the specificity of positions is a little too 
restrictive?
    Admiral Lautenbacher. Yes, that is the Administration's 
current position at this point. But I believe that we can work 
this out with some conversation back and forth as we go through 
this.
    There are some issues, as Dr. Baker mentioned, about 
whether the Secretary appoints people or whether it is 
delegated to the Under Secretary. The Administration's position 
would be that the Secretary, levels of appointments should be, 
in the authorizing language, at the Secretarial level and then 
allow the executive branch to redelegate as necessary. There 
are many things that work that way now internal to the 
Department of Commerce where the Secretary is named in 
legislation to be responsible for something which is in the 
NOAA purview and then it is relegated from the Secretary and 
that works fine. So I think those are, again, areas where we 
can discuss specifically.
    Again, the Science Advisory Board we would like to have it 
say it is authorized or appointed by the Secretary because that 
is the normal way the rest of the boards are set up within the 
Department of Commerce. I think this is just a language issue. 
So we are not talking about major substantive changes. I am 
talking about language changes to ensure that the flexibility 
and prerogatives of both Congress and the Administration are 
properly safeguarded as we go through this.
    There are a couple of things here regarding joint and 
cooperative institutes, language in Section 11. We would like 
to see language which is probably fairly close to what the 
appropriations language has now that we have been working under 
because that will give us the most flexibility in terms of 
having these partnerships, very productive partnerships with 
universities to create joint institutes for research together. 
That has been a productive area for us.
    We would also like to call the Committee's attention to 
some concerns regarding our interagency financing issues for 
two programs that I think are really good; the Coastal American 
Program and the NOPP, the National Oceanographic Partnership 
Program. There is some restrictive legislation that causes us 
an issue when we try to get interagency support for these 
programs. In other words, these are interagency programs that 
try to leverage the various expertise that is available across 
a wide variety of agencies to help with regional problems, and 
to help with research in the case of NOPP. Right now we have 
difficulty setting up those agreements to allow other agencies 
to contribute. This is a mechanical issue more than it is 
anything else, but we are in need of some help in that area if 
we are to realize the benefits from Coastal America and the 
Oceanographic Partnership Program.
    Mr. Gilchrest. I might just ask, Admiral Lautenbacher, in 
Dr. Baker's testimony he made a suggestion that it be made 
clear that the Under Secretary report directly to the Secretary 
with no intermediary; critical for the functioning of the 
agency. Is that something that you would agree with? I do not 
know how we would put something like that in the legislation. I 
guess we could do almost anything.
    Admiral Lautenbacher. Yes, sir.
    Mr. Gilchrest. Or try. Would you like to comment on that 
and then maybe a clarification from Dr. Baker?
    Admiral Lautenbacher. Yes, sir. I believe that I feel that 
I do work for the Secretary. I do not see--in the situation 
that I have come into in the current Administration if feel 
that that is the system that we have in place so I am not--I 
agree with Dr. Baker in a sense that the Under Secretary should 
report to the Secretary. That is in fact the right way to do 
business and it is the way we do it today. I do not have a 
formal comment as the how to set that up in legislation itself. 
Let me pass to Dr. Baker.
    Mr. Gilchrest. Dr. Baker.
    Mr. Baker. Having had experience with four Secretaries, I 
can say that I had a variety of different interactions. What I 
would say is there is that some Secretaries are great in terms 
of delegating the responsibilities of the agency to the head of 
the agency; everything works fine. Other Secretaries would like 
to step in and make decisions sometimes which are not 
justified. I think it is important that you have a statement 
something like: ``the Under Secretary for Oceans and Atmosphere 
shall be the Department of Commerce official responsible for 
all ocean and atmosphere issues.'' In this way there is not a 
tendency to set up an unofficial adviser through which the 
Under Secretary has go through in order to get to the 
Secretary.
    The only reason I mention this, is that this has happened 
to me, and it has happened to previous administrators. So some 
statement about the fact that this responsibility for ocean and 
atmosphere, this is the official responsible for it, I think 
would be a useful thing to have. I think some language could be 
worked up along those lines.
    Mr. Gilchrest. Thank you, Dr. Baker. That is interesting 
and we will take that into consideration. I think some of the 
other areas, Admiral, that you have some concerns with 
probably, I would guess, can be worked through ourselves and 
with the staff.
    I yield now to the gentleman from New Jersey, Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman.
    Gentlemen, you heard in my opening statement that I 
mentioned the two national commissions, the National Commission 
on Ocean Policy and the Pew Oceans Commission which are 
scheduled--both are scheduled to release a broad series of 
recommendations to modernize our ocean policy in the 
foreseeable future. So my questions really relate to that. The 
Subcommittee, obviously, has three bills collectively that 
would authorize NOAA's organizational and administrative 
framework. The question really is, knowing that these other two 
commissions are going to come out with their reports, should 
Congress consider this legislation now, should we defer action 
on these bills until these commissions transmit their 
recommendations to Congress? Either one of you or both of you.
    Admiral Lautenbacher. Yes, sir. I am very aware of the 
deliberations by the Oceans Commission, President's commission 
and the Pew Commission. I have been a supporter of the 
legislation and the role that they are performing and I am 
looking forward to hearing their recommendations and to working 
to do whatever we can to improve the situation based on those 
recommendations.
    I do believe, however, that there is a need to consider the 
bills that we have today in today's context and to use that as 
a baseline. NOAA is an extremely important organization or 
agency to this country. It has been working very hard over many 
years under a piecemeal authorization type of situation. Dr. 
Baker said it very eloquently as he talked about the need to 
ensure that our missions and roles are characterized in today's 
world as the rights ones and that we are empowered to be able 
to do them both in context with the Administration and 
Congress.
    I also think it would be beneficial as the commission gives 
their report, and we already know that the President's 
commission will be late and probably later this year before we 
even see the report, which means that this could take awhile to 
get through the system. That having the work that this 
Committee has done set up as a baseline from which to compare 
and work would probably be a good benchmark. Do not try to bite 
off the whole thing at once; let us work in stages and this is 
a good stage to set as the next floor from which to work. So I 
would support continuing to deliberate on these bills. Thank 
you.
    Mr. Pallone. Dr. Baker.
    Mr. Baker. Congressman Pallone, having watched NOAA for a 
long time, and worked with Congress and the agency and been 
part of it, I believe that it very important for the United 
States to have a strong ocean agency. I think the issues are 
important. We work best in our system by having a single agency 
with a single responsibility. Frankly, I think the best thing 
that we could have is an independent NOAA with an Oceans 
Committee in Congress. That is really what we ought to be 
working for. If we could direct our legislation to help us get 
there, that would be great. I do not know what these 
commissions are going to recommend. I have told them, both 
commissions, that that is really what we ought to be aiming 
toward, because we are only going to be able to address oceans 
issues in the United States with a very strong NOAA. NOAA is 
the agency that has these things. NOAA has the expertise and it 
is the place to reach out and make it happen. So the more that 
we can do in terms of outlining roles and mission, and 
focusing, I think the closer we will get to that goal.
    Mr. Pallone. I am not going to be able to--I am not going 
to ask you about the congressional Committee because, as you 
know, Mr. Chairman, I was not an advocate for abolishing the 
Merchant Marine and Fisheries Committee. When I heard your idea 
about reestablishing it, it certainly sounds good. But I know 
that is going to have to be the Republicans since they are in 
the majority. They are going to make that decision so I will 
not go there today.
    Mr. Gilchrest. If the gentlemen would yield just for a 
second.
    Mr. Pallone. Of course.
    Mr. Gilchrest. I will give you my line to the former 
Speaker on that issue before the swearing-in ceremony of 1995. 
It was from Oliver Cromwell's last moments where he said, I 
beseech you in the bowels of Christ, think it possible you 
might be mistaken. So that phrase was used to preserve the 
Merchant Marine, Fisheries Committee and it will be reenacted, 
we hope, in the coming sessions.
    Mr. Pallone. I wish you luck. I always felt the only reason 
it was abolished was because the Speaker, who was then 
Gingrich, felt he had to abolish some Committees and a lot of 
emphasis was not placed on which ones to abolish.
    But in any case, you mentioned that you would support an 
independent agency. In other words, have NOAA be similar to, 
say, the EPA as an independent agency. Can I ask, Admiral, 
would you comment on that as well? Would you favor a similar 
type of thing?
    Admiral Lautenbacher. The Administration has not been 
developed a clear position on that at this point. It is not a 
recommendation of the commission yet. We have testified, Dr. 
Bodman has testified to the Ocean Commission and I have 
testified to the Ocean Commission that there are pros and cons 
on both sides of that issue. Obviously, as Dr. Baker said, 
there is a very strong argument to have an independent NOAA in 
terms of having a strong ocean agency with the empowerment and 
independence to work in those areas which are so vital to our 
country.
    On the other hand, an agency to be strong and function 
independently needs to have a certain level of resources, a 
level of scope and span of control, a certain empowerment at a 
level where they can compete in terms of working with OMB, 
working with the President, working with the Committees, the 
structure in Congress.
    Mr. Pallone. So it would have to be different, in other 
words, if it is going to be independent.
    Admiral Lautenbacher. I think we need to think about that 
very carefully, when you make an independent NOAA, what it 
would contain and how it would function as an independent 
agency versus being under the wing of the Commerce Department. 
So that there are models on both sides and I have expressed my 
opinion that we need to think carefully which model makes, 
sense. Obviously, the Administration will be prepared to 
comment when the Ocean Commission comes out with their--we will 
work through that inside the Administration.
    Mr. Pallone. Thank you, both.
    Mr. Gilchrest. Thank you, Mr. Pallone. Intriguing 
questions; thoughts for our future road map.
    Admiral, I would like to ask just a couple of questions 
on--you made a comment about separating the regulatory arm of 
NOAA and the research arm of NOAA. I was wondering if you could 
tell us how that might work, let's say with the Magnuson Act. 
There has been a great deal of discussion up here on the 
Magnuson Act over the last 2 years. We are going to try to 
reauthorize it in this Congress. Some people's comments about 
the Magnuson Act would be that the Magnuson Act is an Act that 
regulates fishing. It is not an environmental act. I would not 
agree with that but that is a certain understanding from many 
members up here.
    In the Magnuson Act it deals--it is highly dependent upon a 
great deal of understanding about how the ocean works which 
comes from the research arm as far as the habitat needs of the 
fishery. It also depends and will continue to--the Magnuson Act 
that will be reauthorized will emphasize more than it has in 
the past on pursuing an ecosystem approach to managing the 
fisheries, which seems that the regulatory arm and the research 
arm would have to be collaborating. So if you could just 
comment in general on separating the research arm from the 
regulatory arm, and then in specifics about how it might work 
with Magnuson.
    Admiral Lautenbacher. Yes, sir, I hear you. It is an 
important question. The specific instance I was talking about 
was just with regard to our national marine fisheries service 
science centers. The marine fisheries service is basically a 
regionalized, decentralized type of operation. It has a number 
of regional offices and then each region has a science center. 
The way that has worked in the past is the science center has 
been reporting to the regional office, and the regional office 
is the office that supports the local councils, does much of 
the work in helping them build the plans, and is involved daily 
in regulatory matters and the functioning of the council with 
regard to its mandatory responsibilities under Magnuson-
Stevens.
    We have a research arm that does a great deal of the 
research for both oceans, mostly oceans and atmosphere. Not so 
much living marine resources, but some. In the other line 
offices we also have specific research. So the objective here 
is to ensure that the research that we have is done on a basis 
which is recognized, completely recognized as sound science by 
the entire scientific community, everybody that is involved, to 
ensure that our science is the best available and is done in an 
environment in which there is no pressure from outside sources 
to corrupt that to meet some parochial need along the way. So 
that is the higher level issue that we have.
    We have set up a research council now that includes all of 
our lines, and a head of that council to build policies and 
directives that are going to keep this, I think, at a level 
where it needs to be for sound science.
    Mr. Gilchrest. I am sure that would be very helpful in the 
process of the council meetings.
    Dr. Baker, do you want to comment on that at all?
    Mr. Baker. Let me just say a couple of words. One is that I 
think it is a good idea to do this kind of separation. I saw 
that tension when I was at NOAA and I am glad to see a 
separation happening. But I think there two other issues in 
terms of management of marine fisheries, particularly 
commercial fisheries, that are important. One is not 
necessarily doing the science. I think NOAA does a good job of 
doing the science. But it is translating the issues of science 
to policymakers, to the Deputy Secretary and Secretary of 
Commerce, to the White House, to Members of Congress, trying to 
make sure that it is fully understood what the scientists are 
trying to say.
    Mr. Gilchrest. You are saying that is difficult?
    Mr. Baker. That is difficult. It is very difficult. I had a 
hard time--
    Mr. Gilchrest. Why is that difficult?
    Mr. Baker. Well, I am a scientist. I am a physical 
oceanographer, not a biologist, but I had a hard time 
understanding what some of the fishery scientists are trying to 
tell me because it was too complicated. I had to get them to 
simplify so that I can understand what are the things where you 
really understand, where are the uncertainties, how can we make 
the case that we are trying to make, what is the case you are 
trying to make, and how do we make it to the Secretary so that 
we can have the right kind of quota for spiny dogfish, for 
example.
    Mr. Gilchrest. And then to the fisherman in Gloucester.
    Mr. Baker. It is the same thing.
    Mr. Gilchrest. Right, on both sides.
    Mr. Baker. I think we have a big issue of translation of 
science. We do a lot of good things in science but there are 
complex issues and I think we have to work on this problem. 
That is why I think it is good that we have regulatory and 
science issues in the same agency so that somebody like the 
Admiral can think about how you bring these two things 
together.
    Mr. Gilchrest. I would like to volunteer my wife for that. 
If my wife can understand it then it would probably be OK.
    Mr. Baker. This would be good. You should sign her up.
    Mr. Gilchrest. I go home and try to explain things and I 
try to have the patience of Christ when I do that. Actually, 
part of this is comical, but when I sat in Gloucester at the 
last New England Fishery Management Council meeting and I heard 
the scientist explaining a whole range of issues dealing with 
the health of the stock, whether it was cod or what have you, I 
sat there with all my faculties and tried to understand what 
they were talking about, having some limited experience in the 
process. And it was difficult, if not impossible.
    So the ability to communicate that kind of information to 
the Secretary, to the President, to the fishermen--and you 
mentioned something, you made reference to that in your 
testimony about the need to communicate this through the 
educational process is really vital. We have that same 
situation where we try to explain these kinds of things to 
members. So a goal that is oriented toward that kind of 
critical communication certainly would be worthy.
    Mr. Baker. Absolutely. One of the things we are doing in 
our museum in Philadelphia is setting up what we call a town 
square for translation of science issues, and we are focusing 
on that question. What are the tough problems? How can we 
explain where we are in terms of science, and then how do we 
bring people together? I think you have put your finger on 
exactly what the issue is there.
    Mr. Gilchrest. Thank you, Dr. Baker.
    Mr. Pallone.
    Mr. Pallone. Thank you. I am listening very attentively 
here to the translation as well as the comments about when you 
go home because I do not try to explain anything if I can avoid 
it.
    I wanted to ask about the National Undersea Research 
Program. This is to the Admiral. In H.R. 959, the bill provides 
authorization for several important NOAA programs including the 
National Undersea Research Program and also the Ocean 
Exploration Program, which is relatively new. I just wanted to 
ask about the distinction, Admiral. What is the distinction 
between the two? And whether the programs should be combined.
    Admiral Lautenbacher. As a matter of fact, it is 
interesting, in our matrix management scheme we are managing 
them together now. So that is a good point that you bring up 
because they are complementary, in a sense. The Undersea 
Research Program has been fairly well-established and it 
includes a great deal of specific types of deep diving 
expeditions and coverage of a variety of issues but, generally 
speaking, confined to deep diving technologies that go with it 
and then what I would call undersea observatories. Those 
pieces, in fact one in New Jersey is one of our prime stars of 
the system. So the NURP program has been focused in those 
areas.
    The Ocean Exploration Program has been designed on a much 
broader scale to cover the entire ocean for that matter. This 
is a large-scale program. We know more about the dark side of 
the moon than we do about the bottom of the ocean. So we are 
talking in ocean exploration about the organization of what I 
would call large-scale expeditions that only an organization 
like NOAA in company with NSF and the Navy and other large 
organizations can put together to explore Mid-Atlantic ridges, 
to look at new life forms, to look at seismic activity at the 
bottom of the ocean, to map the bottom of the ocean, to look at 
habitat, specific ecosystem habitats in the ocean. It is a very 
large-scale program.
    Your point about them being managed together is a good one 
because part of my matrix management initiative for NOAA 
includes managing those together to ensure that they are 
complementary and supportive of each other, not duplicative.
    Mr. Pallone. I wanted to ask about submersibles, too. 
Basically, what is the appropriate role for NOAA in the 
encouragement and development of new generations of the 
underwater submersibles, both the manned and the unmanned, if 
you would comment on that?
    Admiral Lautenbacher. Yes, I think NOAA has a very 
important role in the area. We have in the past been a leader 
in the technologies and we have done that in collaboration and 
partnership with the major oceanographic institutions of this 
country, academic and otherwise, such as Woods Hole and 
Scripps, independent organizations. But those partnerships are 
very important. So NOAA has a role in working on the 
technology, working on sponsoring large-scale expeditions, and 
working on the empowerment of a large-scale partnership to 
ensure that the country has a lead and has the proper lead in 
oceanographic exploration.
    Mr. Baker. I wonder if I could just make a comment about 
that.
    The NURP program, the National Undersea Research Program I 
think is a very important program for NOAA, has been for a long 
time and it has developed in a strong way. But it has never 
reached the potential that was really identified for it at the 
beginning. One of those things was to develop the technology 
for doing the kinds of things that the ocean exploration 
program talks about doing on a global scale. The NURP program 
has worked well as far as it has gone but it really needs 
substantially more funding to provide the kinds of ocean 
technology so that we have really do all these things that we 
are talking about.
    I would love to see here a stronger NURP program that 
underpins the ocean exploration program. I think they do need 
to go together, but if we could get back to the original goals 
of NURP and provide that kind of support then NOAA could play 
this role as the civil ocean technology agency, that it was 
envisioned when it was first set up in the 1970's.
    Mr. Pallone. I agree. I think funding is a major issue 
there. Dr. Baker, I wanted to ask you a question too. In the 
previous Administration under President Clinton there was a 
reinventing government initiative and there was a proposal to 
abolish the NOAA Corps and mothball the NOAA fleet. Now 
conversely, legislation passed last Congress and legislation 
before the Subcommittee today provides authorization to 
modernize the fleet and construct new vessels. So first of all, 
why has the attitude changed toward NOAA's fleet of research 
vessels in both the Congress and at NOAA? Can you give us any 
insight into that?
    Mr. Baker. There were two pieces to the question. One is 
the NOAA Corps. It was my belief and the belief of the 
Administration, that the NOAA ships, the operations of NOAA 
could be carried out just as well by civilians as by a 
uniformed corps. We believed that the functions had to be 
carried out but we did not see the need of a small uniformed 
corps. We tried to see if we could make arrangements whereby we 
could transfer the functions of the NOAA Corps over to a 
civilian group. In the end, a lot of things did not work and we 
were not able to make that happen.
    But I was always, and the Administration was always in 
support of having sea-going capability for NOAA, and we looked 
at a variety of ways of doing that. One of those was to improve 
the quality and number of NOAA ships. We put in a number of 
requests. I think we in fact got some of the first money for 
new NOAA ships in the Clinton Administration. We also looked at 
ways of leasing so we could engage the private sector. That has 
not gone as far as the question of trying to provide new ships. 
But the whole idea of providing, for example, four to six new 
fishery vessels is something that started under the Clinton 
Administration. We were strong supporters of that and I am glad 
to see that that is now continuing because I think the 
fisheries service needs those new quiet ships for stock 
assessment. And we need the new hydrographic ships; same thing.
    I do not think there is a change. When I came on board 
there was a NOAA ship replacement plan. In 1993 we adjusted 
that and changed it. We turned it in, in fact to, I think, a 
reality in terms of getting commitment for new fisheries 
vessels and I see the new Administration is supporting that. So 
I think there has been a continuing commitment from the agency 
and from Congress in providing modern sea-going capability for 
NOAA.
    Mr. Pallone. Mr. Chairman, related to that I just one more 
question about whether there should be a limit imposed on the 
amount of contracting or chartering of ships by NOAA, and 
whether that kind of limit would impede or hinder your data-
gathering responsibilities.
    Mr. Baker. I have always felt that you want a mix of 
capabilities for an agency like NOAA. I think in some cases 
contracted fisheries vessels can collect information on 
fisheries, and we had a number of discussion and I know those 
are ongoing, about using commercial fishing vessels for 
collecting such information.
    On the other hand, I think it is also important for the 
agency to has its own independent capability. But I would not 
try to put a limit on this. I think, in the end, a mix of 
private and public facilities is always the best way to go. It 
is always the most cost-effective way to go.
    Mr. Pallone. Thank you.
    Mr. Gilchrest. Thank you, Mr. Pallone. Do you want to 
comment on that, Admiral?
    Admiral Lautenbacher. I agree with Dr. Baker in just about 
everything that he said there. In terms of the plan, we are 
building a plan and we are continuing on with the object of 
modernizing the fleet. I believe that the country needs a core 
oceanographic capability to cut across the various science 
disciplines that are contained within the NOAA organization. We 
need to be the leaders in this area as this country progresses 
into the future. So there is a need for this core capability.
    Now we look at the most efficient way to do business and a 
great deal of what came out of working on the NOAA Corps issue 
that happened during Dr. Baker's tenure, the Corps is a lot 
leaner, it is more efficient today, it provides a service that 
is comparable in cost to a civilian organization. So thanks to 
the work that has been done, it is a very cost-efficient 
organization. So they are doing well in terms of providing the 
kinds of support we need for our core capabilities.
    But we also have--half of our support is contracted out 
and, in certain circumstances, that makes a lot of sense. We do 
it based on a cost-effectiveness basis for the future. Our 
plan, looking at modernizing our fleet, is taking the same 
things into account. What is the best way to do it? Is this a 
mission that has to be a NOAA Corps capability or can it be 
done more efficiently and more effectively by civilian 
contracts? So we are right in step with that.
    Mr. Gilchrest. So a mix of NOAA Corps and leasing is the 
order of the day?
    Admiral Lautenbacher. Yes, sir.
    Mr. Gilchrest. If there is anything we can do in the 
legislation to hold onto that capability or help emphasize that 
capability we would like to work with you on that as well.
    Mr. Saxton had a couple of questions that I will ask on his 
behalf. The first one is, what is NOAA's current expansion plan 
for the PORTS, the Physical Oceanographic Real-Time Systems, 
and does NOAA have a strategic plan to pursue a nationwide 
PORTS program for all commercial ports? What's the timeframe to 
accomplish that goal and the estimated cost?
    Admiral Lautenbacher. The PORTS program, as I think 
everybody is aware, until the passing of the most recent 
legislation has been a collaborative partnership program in 
which NOAA provides technical out and the set-up, initial 
capitalization of much of the equipment. But the operations, 
maintenance, day-to-day and support has been provided by each 
local port. The Hydrologic Improvement Services Improvement Act 
gave in order to--has asked the Nation, essentially, to fund 
the whole operation.
    That Act was passed late in the year. When we did our 
Fiscal Year 2004 budget that was not part of the program. So we 
are working on that in Fiscal Year 2005. I have not had a 
chance to bring these, what I would call major policy and 
funding issues, up through the Administration yet to get a 
reading on how we are going to deal with that. Obviously there 
is a resource impact here, and there is also an operational 
concept impact because of the partnerships that been set up now 
across the country.
    So I think it is a legitimate point of view to look at 
whether the Nation should provide that type of support whether 
it should be provided locally and regionally. It is again a 
partnership issue.
    In terms of spreading, we are trying to take the PORTS 
technology and move it to every place that it makes sense. We 
have new PORTS systems in operation now. We plan to put four 
more in operation in 2003, and we have plans on the table to 
keep expanding this technology. We also asked for money this 
year to improve our water level network, national water level 
network, which is the tide gauges, et cetera. That is the that 
goes into these systems to make them work. We have asked for 
some money to improve the modeling so that we can tell you what 
is going to happen in the future needs in each port instead of 
giving you a now-cast of all the conditions that pilots to 
bring ships into port safely. We will be developing models 
which will give you the forecast so that you will be able to 
plan even better in the future how to manage port operations in 
an efficient way.
    So those are the things that are going on. We are very 
excited about the support of Congress for this program and we 
will be working, deliberating on it in Fiscal Year 2005.
    Mr. Gilchrest. Thank you, Admiral.
    The second question, when will NOAA implement operational 
air gap and visibility sensors? This is a Mr. Saxton question.
    Admiral Lautenbacher. Say that one again. That is a good 
one.
    Mr. Gilchrest. When will NOAA implement operational air gap 
and visibility sensors? Maybe we can get back to that. I see 
some staff smiling behind you, Admiral, so--
    Admiral Lautenbacher. That does not ring a bell with me 
offhand, what he is getting at.
    Mr. Gilchrest. It does not ring a bell them either, I do 
not think. That is fine.
    Admiral Lautenbacher. We have an interpretation if you have 
the patience to listen to it for a second.
    Mr. Gilchrest. Sure, absolutely.
    Admiral Lautenbacher. We believe that the air gap we are 
talking about is the air gap between the bridges and cargo that 
has fairly extreme height limitations. We have that famous 
picture of the cranes being brought underneath the Golden Gate 
Bridge into San Francisco and it shows 27 inches clearances. 
You have to know pretty precisely about height modernization, 
so that is part of the geodetic business that we do and we are 
involved in trying to improve our height data reference network 
around the country, and we are actively pursuing that. It is 
important to us and that type of analysis will be put into 
these new models I mentioned to ensure that people will 
understand what the future--if you know the tides and the winds 
and the currents and you can project that into the future you 
have a good chance to schedule it so it comes through at the 
right time.
    Mr. Gilchrest. Very good. We will pass that on to Mr. 
Saxton. Thank you.
    Just one other last quick question to Dr. Baker. This 
really does not have anything to do with the legislation before 
us but in your testimony you talked about environmental 
research on a national scale including Pennsylvania and 
Maryland and you are looking for new public programs in 
Maryland and Philadelphia to build a scientific literacy that 
is highlighted in this and other pieces of legislation.
    I find those statements fascinating because for a little 
while now some of us in Maryland have been looking to set aside 
some public land, maybe some private land. We have already 
designated some public land but have not gotten too far with 
local officials to set aside this public land in some way, but 
not the same as an estuarine research center where you would 
have the land and water interface become an ecological study 
area, so you could see in areas where you set this aside how 
the natural flora and fauna reacted, how far succession, based 
on its location, evolved. And maybe, depending upon a strict 
interpretation of the concept of island ecology, since some of 
this land is on the Chesapeake Bay and it is also surrounded by 
farms it makes it almost a small island in this particular 
vicinity similar to an island would be in the ocean as the 
evolution of the plants and animals on it.
    So there are a number of interesting sites that we would 
like to work with your center in Philadelphia with the state of 
Maryland and perhaps Washington College near or in Kent County, 
and even the University of Maryland for some other locations.
    You also mentioned the natural history museum, to reinvent 
the natural history museum, which I assume would be in 
Philadelphia, and/or maybe the one here in Washington. Some of 
these places could then be actually a part of that reinvention 
of a natural history museum so that they could be an ecological 
study area for students and people to visit and have some 
understanding about how the flora and fauna in their region, 
which is not impacted directly, evolves and functions.
    Mr. Baker. Mr. Chairman, you have taken this idea further 
than I had and I love what you are talking about. I think this 
is something we could think about not just in Maryland and 
Pennsylvania but also New Jersey and Delaware as a multistate 
activity. One of the things that has always struck me is that 
six million people per year go through the National Museum of 
Natural History here in Washington and yet we do not have a 
single exhibit that really reflects the excitement and 
commitment of things about the ocean and the coast that we are 
talking about--six million people. So if we could just develop 
some exhibits and we could do what you are talking about with 
set aside of lands and show how these two things work together 
I think we would have a much better sense from the public about 
the importance of what we do.
    Mr. Gilchrest. We would want include New Jersey in this, 
not only for Mr. Pallone but certainly the flyway.
    Mr. Pallone. The other place that has it is at the zoo, 
because I take my kids there sometimes. They have that--
    Mr. Gilchrest. The Philadelphia zoo?
    Mr. Pallone. No, in Washington, the zoo has that building 
where they have some ocean exhibits and you can look at the 
different coral and sea plants. But that is over at the 
Washington zoo, not at the natural history museum.
    Mr. Baker. I think a combination of using the zoo and the 
fact that you can see a whole habitat there, the Amazonia 
habitat and there are other such habitats, I think one has to 
think of these two things together really, the zoos and the 
natural history museums. They offer an untapped resource to get 
the public excited about the things that we do. We are not 
doing it now, so I thought this would be a good sequel for me, 
having been administrator of NOAA, to go into the public 
programs business and see if we could not get the public really 
excited about the things that we are all excited about it.
    Mr. Pallone. It sounds good.
    Mr. Gilchrest. And the aquarium in Baltimore could be a 
part of this because the National Aquarium in Baltimore does 
have some extraordinary exhibits there reflecting the 
Chesapeake Bay.
    Mr. Pallone. You have the aquarium at the Commerce 
Department too but that needs to be upgraded. Mr. Chairman, Mr. 
Kildee wanted me to ask a question to inquire about what NOAA 
is doing to ensure sufficient funds are available for water 
level measurements in the Great Lakes. I guess that is for the 
Admiral.
    Admiral Lautenbacher. Yes. We have $1.5 million dollars 
increase in our water level network measurement, water level 
observing network system, and that includes modernizing the 
stations in the Great Lakes as well. So we are very much 
interested in the Great Lakes. They have all the 
characteristics of coasts and small oceans and they are part of 
our portfolio. We are interested in ensuring that they have 
what they need and we have what we need from the scientific 
data to handle our responsibilities, so it is very important to 
us.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    The gentlelady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I am sorry 
for coming in and departing, and coming back again but it is 
the way it is I am learning.
    Good afternoon, Admiral, and all of the others who are here 
to testify. Mine is not so much a question but just to thank 
you. I represent the territory of Guam and I would like to 
thank you and NOAA for committing a research vessel to Guam and 
the Marianas this summer. I understand that NOAA's Oscar Sette 
research vessel, I believe that is what it is named, will be 
spending roughly 39 days in the Western Pacific area this 
August. Am I correct in that?
    Admiral Lautenbacher. I believe you are. I will check that 
for the record but the last time I looked they will be in that 
area.
    [Information from NOAA follows:]

    The OSCAR ELTON SETTE will be in the Western Pacific area during 
August and September of 2003 spending 40 operating days conducting 
coral reef research around the Northern Mariana Islands. The vessel 
will have two port calls in Northern Marianas' ports in late August and 
mid-September.
                                 ______
                                 
    Ms. Bordallo. I just want to thank you again for that. We 
truly appreciate it. I believe the last time we had a NOAA 
research vessel out to the Marianas was in 1984. I would like 
to ask you, Admiral, to please keep up the research effort in 
Guam and the area around the Marianas. It would be great if we 
could see a NOAA research vessel visit Guam every 2 years, if 
that is possible.
    Admiral Lautenbacher. Thank you. I appreciate that. We will 
try to do our best. Thank you.
    Mr. Gilchrest. I thank the gentlelady. Admiral Lautenbacher 
and Dr. Baker, thank you so much for your time that you spent 
with us here this afternoon. Your testimony has been very 
valuable to us to develop this legislation and we look forward 
to working to you further on a number of issues. Thank you very 
much.
    Admiral Lautenbacher. Thank you, sir.
    Mr. Gilchrest. The hearing is adjourned.
    [Whereupon at 3:12 p.m. the Subcommittee was adjourned.]


</pre></body></html>
